<html>
<title> - NOMINATION OF MARGARET M. WEICHERT</title>
<body><pre>[Senate Hearing 115-427]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-427

                   NOMINATION OF MARGARET M. WEICHERT

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

     NOMINATION OF MARGARET M. WEICHERT TO BE DEPUTY DIRECTOR FOR 
              MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

                               __________

                           DECEMBER 14, 2017

       Available via the World Wide Web: http://www.govinfo.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     
      
                          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-100 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a> 
       
        
     
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
              David N. Brewer, Chief Investigative Counsel
           John D. Cuaderes, Staff Director, Subcommittee on
               Regulatory Affairs and Federal Management
               Margaret E. Daum, Minority Staff Director
                  Phylicia L. Woods, Minority Counsel
                 Claudine J. Brenner, Minority Counsel
  Joseph L. Lindblad, Minority Professional Staff Member, Subcommittee
         on Federal Spending Oversight and Emergency Management
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Peters...............................................     2
    Senator Hassan...............................................     8
    Senator Carper...............................................    10
    Senator Heitkamp.............................................    13
Prepared statement:
    Senator Peters...............................................    21

                               WITNESSES
                      Thursday, December 14, 2017

Margaret M. Weichert to be Deputy Director for Management, Office 
  of Management and Budget
    Testimony....................................................     3
    Prepared statement...........................................    23
    Biographical and financial information.......................    26
    Letter from the Office of Government Ethics..................    45
    Responses to pre-hearing questions...........................    48
    Responses to post-hearing questions..........................    73
    Letter of support............................................    99

 
                   NOMINATION OF MARGARET M. WEICHERT

                              ----------                              


                      THURSDAY, DECEMBER 14, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
342, Dirksen Senate Office Building, Hon. James Lankford 
presiding.
    Present: Senators Lankford, Daines, McCaskill, Carper, 
Tester, Heitkamp, Peters, Hassan, and Harris.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good morning, everyone. Today we are 
considering the nomination of Margaret Weichert to be the 
Deputy Director for Management at the Office of Management and 
Budget (OMB).
    The Committee takes these nominations very seriously and we 
are pleased to have a strong nominee before us today for this 
critical leadership role. As Chairman of the Subcommittee on 
Regulatory Affairs and Federal Management (RAFM), I can tell 
you I am particularly interested in the work of the Office of 
Management and Budget.
    Ms. Weichert comes to government service after a highly 
successful career in the private sector, where she was a leader 
in the financial and electronic payment technologies, an 
entrepreneur, a proven executive. Throughout her career she has 
demonstrated particular skill at strategic planning and policy 
implementation, as well as leading large departments of people.
    Ms. Weichert received her bachelor of science from 
Georgetown School of Foreign Service in 1989. She then went on 
to study economics as a Rotary Scholar at the University of 
Sussex, and later earned her MBA from the University of 
California, Berkeley in 1995.
    Ms. Weichert began her career at Accenture in 1995, her 
work there focusing on the fast-changing world of e-commerce, 
which has changed quite a bit since 1995. Ms. Weichert took 
this experience and used it to launch her first of her own 
companies, Achex.
    Ms. Weichert. Achex.
    Senator Lankford [continuing]. Achex; got it--an 
alternative electronic payment company, which she later 
successfully sold to First Data Corporation. After time at 
First Data Corporation, Ms. Weichert continued her prestigious 
career at Bank of America, before leaving to found her own 
consulting group, the Morgan Weichert Group, while also serving 
as a principal at two other consultancies, Market Platform 
Dynamics and the Global Economics Group. Most recently, Ms. 
Weichert was a principal at Ernst & Young.
    Ms. Weichert, thank you for being here today, for bringing 
your business acumen to the Federal Government service. I look 
forward to hearing more about you and your plan to bring these 
successes and these experiences, and the wisdom that you bring 
with it to bear for the support of the mission of the Office of 
Management and Budget.
    Committee staff reached out to a variety of your colleagues 
and affiliates, as you know well, because they probably called 
you right after committee staff talked to them. All of those 
individuals that we talked to spoke very highly of you. 
Committee staff also had the opportunity to be able to 
interview Ms. Weichert on an array of issues. Ms. Weichert has 
thoughtfully and competently answered each question put to her 
as part of the vetting process.
    To date, the Committee has found you to be qualified for 
the position to which you have been nominated so we are moving 
on to this level and this layer of the process.
    Again, we look forward to hearing more from you during this 
hearing, and I will recognize Ranking Member Peters for his 
opening statement.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Well, thank you, Mr. Chairman, and thank 
you, Ms. Weichert, for being here today and for your 
willingness to serve as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 21.
---------------------------------------------------------------------------
    In reviewing your qualifications, I noticed your particular 
expertise and interest in payments technology and 
modernization. That is something that I have actually been 
personally working on here in the Senate, and I hope that it is 
something that we can work on together in the future, should 
you be confirmed.
    As we consider your nomination, I want to acknowledge the 
widespread agreement in this room today that we should always 
be finding ways to work together in a bipartisan way to make 
government more efficient and more effective for the American 
people. This Committee has a strong record of bipartisanship 
accomplishment and holding government officials accountable, 
protecting whistleblowers, empowering the inspector general 
community, cutting unnecessary red tape, and conducting 
diligent oversight to root out instances of waste, fraud, and 
abuse.
    That is what I am looking out for, as the Ranking Member of 
the Federal Spending Oversight (FSO) Subcommittee of this 
Committee, and I know the Deputy Director for Management 
position at OMB plays a very important role in this effort as 
well.
    We need to make sure that we empower Federal Agencies with 
the resources, the talent, and the expertise that they need to 
carry out their critical missions instead of undermining them 
or making blunt policy choices, while also looking out for 
opportunities to reduce inefficiencies, streamline government 
operations, and avoid duplications of effort.
    Ms. Weichert, I hope you share these goals and I look 
forward to hearing more about your management agenda and your 
specific plans for improving the Federal Government procurement 
policies, the information technology (IT) systems, and 
financial and personal management practices. We should approach 
these issues remembering that we have been entrusted as 
stewards of the taxpayer dollars and that we should work 
together so that government works for everyone.
    Again, I look forward to your testimony.
    Senator Lankford. Ms. Weichert, it is the custom of the 
Committee to swear in all witnesses that appear before us, so 
if you would not mind, please stand and raise your right hand.
    Do you swear that the testimony that you will give before 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Weichert. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect that the witness answered in the affirmative.
    Ms. Weichert, we would like to recognize you for your 
opening statement and then we would like to be able to just ask 
some follow up questions from there. If you do not mind, during 
your opening statement, to also introduce any family or friends 
that have joined you, so this Committee can get a chance to see 
some of those folks, and you can recognize some people that 
have traveled a long way to be able to be here with you.
    Ms. Weichert. Sure.
    Senator Lankford. Thank you.

TESTIMONY OF MARGARET H. WEICHERT\1\ TO BE DEPUTY DIRECTOR FOR 
          MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Ms. Weichert. Thank you, Mr. Chairman, and I would like to 
thank you, the Ranking Member, and the Members of the Committee 
for your gracious welcome.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Weichert appears in the Appendix 
on page 23.
---------------------------------------------------------------------------
    It is an honor to appear today before this Committee as the 
nominee for Deputy Director for Management at the Office of 
Management and Budget. I would also like to thank my family for 
joining today. My two boys, James and Andrew are here getting a 
real-life civics lesson, and my parents, Ed and Mary Alice 
Morgan, are here from wintry upstate New York to support me. It 
is even more special because today is my mother's birthday, so 
happy birthday, Mom.
    Senator Carper. You know that means we are going to have to 
ask really tough questions. No softballs on her birthday. 
[Laughter.]
    Ms. Weichert. I really appreciate their support and 
encouragement, in spite of long hours and much time spent away 
from home.
    My motivation to leave our home in Georgia and the private 
sector for a role in Washington is rooted in a long family 
tradition of public service. I am following in the footsteps of 
family members who served the country through military service, 
elected office, in State government, and in the Postal Service.
    I would also like to thank the Members of this Committee 
and their staffs for meeting with me and sharing perspectives 
on key management issues facing our country. If confirmed, I 
look forward to working with you to identify and implement 
innovative management solutions. Finally, I would like to thank 
the President and OMB Director Mulvaney for inviting me to 
serve. I feel humbled and honored as I embark on my first 
experience in public service.
    The Deputy Director for Management is an important role 
charged with leading a broad range of disciplines that provide 
the management foundation for the core missions of government. 
In and of themselves, functions like IT, information security, 
human capital management, finance, accounting, performance 
management, and procurement may not be inherently exciting, but 
these functions provide necessary and essential capabilities 
needed to support the work of government agencies.
    The management function at OMB is challenged to use a fact-
based approach to balance financial stewardship and efficiency 
with effectiveness and transparency. Government agency missions 
vary widely, but all rely on management capabilities. Whether 
rescuing families and their dogs, cats, and livestock from 
fires in California or floodwaters in Texas, helping small 
businesses compete for government contracts, or allowing 
farmers to efficiently get loans or crop insurance, or 
supporting the health care needs of our veterans, the business 
of government in every case relies on mission-critical 
management services.
    Twenty-plus years in the private sector should position me 
well to drive transformational change and better align Federal 
Government management capabilities to the realities and needs 
of the 21st Century. Building on an academic background in 
economics, management, and finance, I have spent the last 20-
plus years driving customer and shareholder value in publicly 
traded companies and as an entrepreneur. I have direct 
experience with P&L management, budgeting, capital allocation, 
new product development, innovation, risk and compliance, 
financial reporting and analytics, and business development. I 
have done these activities as an employee of two large publicly 
traded companies, Bank of America and First Data, and as a 
consultant to large publicly traded companies in the financial 
services, financial technology, and retail industries.
    In these private sector roles, I have been privileged to 
use a wide range of leading practices, including Six Sigma, 
Design for Six Sigma, Agile development, business process 
automation, and user-centered design to create and implement 
complex transformational change agendas with strong positive 
financial and customer experience impacts.
    In all my private sector roles, I have sought to bring a 
spirit of innovation and a passion for doing the right thing, 
to drive breakthrough results and thinking. I have led large 
teams of diverse talent to achieve results that even they did 
not believe possible. And I have been as excited about 
innovating and support areas, like payments, accounts payable, 
and commercial cash management, as I have been about 
innovations in mobile banking or online payments. Many of these 
innovations, even in non-customer-facing areas, were innovative 
enough to result in 14 successful U.S. patents.
    My hope, if confirmed, is to bring this spirit of 
innovation, combined with private sector practices, to driver 
greater efficiency, effectiveness, and transparency in Federal 
management functions. Moreover, I would like to build on 
existing management successes to create and implement a 
transformational vision for the 21st Century management.
    Through the President's Management Agenda and the 
President's Management Council, if confirmed, I would focus on 
three transformation areas. The first would be IT 
modernization; the second, data accountability and 
transparency; the third, people and the workforce for the 21st 
Century.
    In conclusion, I would like to thank you for your input and 
consideration. If confirmed as Deputy Director for Management, 
I look forward to working with you to improve the efficiency, 
effectiveness, and transparency of the Federal Government 
through improvements in management competencies.
    Thank you again. I look forward to answering your 
questions.
    Senator Lankford. Thank you. Ms. Weichert, I need to ask 
three mandatory questions that we ask of all nominees before 
they come before this Committee and then I am going to defer 
questions to the end, and the Ranking Member Peters will then 
ask questions.
    The first question, is there anything that you are aware of 
in your background that might present a conflict of interest 
with the duties of the office to which you have been nominated?
    Ms. Weichert. No.
    Senator Lankford. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Weichert. No.
    Senator Lankford. Last question, do you agree, without 
reservation, to comply with any request or summons to appear 
and testify before any duly constituted committee of Congress 
if you are confirmed?
    Ms. Weichert. Yes.
    Senator Lankford. Thank you very much. Ranking Member 
Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Ms. Weichert, I would like to confirm that a few of the 
answers in your questionnaire remain the same today as you 
appear before us.
    As you know, conducting oversight of the Executive Branch 
is one of the most critical functions of this Committee, and so 
I am going to read you a few questions from your questionnaire 
and just to ask whether you would respond yes or no in public 
today.
    If confirmed, do you agree, without reservation, to reply 
to any reasonable request for information from the Ranking 
Member of any duly constituted committee of Congress?
    Ms. Weichert. Yes.
    Senator Peters. If confirmed, do you agree, without 
reservation, to reply to any reasonable request for information 
from Members of Congress, generally, regardless of party 
affiliation?
    Ms. Weichert. So I look forward to working with Congress on 
all of the issues that are relevant to this Committee and to 
others, and I seek to be as open and proactive in sharing 
responses and working with those Members.
    Senator Peters. The question said reasonable requests, so 
are you open to working----
    Ms. Weichert. Yes.
    Senator Peters [continuing]. On reasonable requests?
    Ms. Weichert. Yes.
    Senator Peters. Thank you. If confirmed, do you commit to 
take all reasonable steps to ensure that you and your agency 
comply with deadlines established by Members of Congress for a 
request of information?
    Ms. Weichert. Yes.
    Senator Peters. Well thank you.
    Ms. Weichert, the position you are nominated for is the 
third-highest ranking position at OMB, and you have indicated 
in your questionnaire that you expect Director Mulvaney to 
delegate responsibility for much of OMB's management agenda to 
you?
    Ms. Weichert. Yes.
    Senator Peters. So that being said, since the time you have 
completed your questionnaire, Director Mulvaney has chosen to 
accept another role, as also the acting Director at the 
Consumer Financial Protection Bureau (CFPB). As far as we know, 
for the time being, he is only planning to be around the OMB 
maybe a couple of days, maybe three. We are not sure how much 
time he is actually going to be at OMB. And I certainly did not 
realize that the Director of the Office of Management Budget as 
a part-time job, but apparently it is a part-time job now.
    But Ms. Weichert, do you believe that the position of OMB 
Director should be a full-time job or a part-time job?
    Ms. Weichert. I believe it is a full-time job and I believe 
the Director is operating two full-time jobs. He has experience 
doing that in the private sector as well, when he was running a 
small business. So, absolutely, I believe it is a full-time 
job.
    Senator Peters. So a 40-hour work week?
    Ms. Weichert. Yes. The Director is working two full, all-
day, every-day jobs.
    Senator Peters. OK. Although you expect to become the point 
person for key management functions at OMB, if confirmed, what 
do you intend to do if the Director is just not there and you 
need to have a face-to-face conversation with the Director, and 
he is on his day working, or maybe not there?
    Ms. Weichert. So business as usual is continuing at OMB 
since the announcement a couple of weeks back, and I have not, 
in my role as senior advisor, had any challenges being in touch 
with the Director. He is highly responsive to all the requests 
that the Management Office has had. So, he is responding to 
emails, and his actual physical location is literally across 
the street, so there has not been any challenges in that 
regard.
    Senator Peters. To what extent have you discussed this dual 
hat arrangement with the Director, and how would you expect, as 
your role as Deputy Director for Management to change if he 
remains at the CFPB, if this part-time job continues for the 
long time?
    Ms. Weichert. So I have not had a private conversation with 
the Director on this topic, but in sharing with the staff 
broadly at the OMB, he made it very clear a couple of things, 
that he takes the independence in both roles very seriously, 
and he anticipates working both jobs in full-time capacity. 
And, again, I do not foresee any challenges and have not seen 
any major shifts in how the organization is operating.
    Senator Peters. Very well. To be effective and secure in 
cyberspace, every Federal department and agency requires a 
modern, defensible network architecture. Yet today, even though 
the Federal Government spends about $80 billion every year on 
IT, nearly every government agency procures and manages its own 
IT infrastructure, as I know you are aware. This means that 
each agency independently identifies and assesses possible 
vendors, which often results in significant duplication, huge 
price variances across the government, and also inconsistent 
security outcomes.
    The Obama Administration began to address this challenge by 
beginning to transition toward cloud technologies and other 
shared security services, and you have indicated in your 
testimony, both written as well as orally here today that IT 
modernization will be a major priority for you, if you are 
confirmed.
    So if confirmed, would you tell us more specifically what 
you would do to reduce the cost and achieve operational 
efficiencies needed to meet today's significant cyber security 
challenges?
    Ms. Weichert. So thank you for the question and I really 
appreciate it. It is an absolutely urgent issue facing the 
country.
    There are a couple of things that really jump to mind. I 
think a lot of the work that has already happened around moving 
to the cloud, and shared services focus heavily on improvements 
in efficiency. I also think, in reference to the point you made 
about paying different amounts across government for 
effectively the same service, there is an initiative around 
technology business management (TBM), looking at creating data 
standardization and taxonomy across government, so we really 
can compare like with like and get the best deal for the 
American people. I think that is another major initiative that 
I think is linked to the challenge that you raised there.
    Senator Peters. Are you concerned that the Federal Chief 
Information Officer (CIO) position remains unfilled?
    Ms. Weichert. One of my priorities, if confirmed, would be 
to really get all of the positions filled, and I know the 
Director is actively working on doing so. So I would absolutely 
want to see that position filled as soon as possible.
    Senator Peters. And there are many unfilled positions all 
across Federal Government, in these CIO positions. You will be 
working to fill those as well, or at least expressing the 
urgency of getting these vital positions filled?
    Ms. Weichert. Absolutely expressing the urgency. I think it 
is quite obvious, when I have met with the Chief Information 
Officer Council (CIOC) that that is a critical need, and 
actually elevating the profile of CIOs in government is 
something that I think is very important.
    Senator Peters. Great. Thank you so much.
    Ms. Weichert. Thank you.
    Senator Lankford. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Mr. Chairman, and 
Ranking Member, and good morning and congratulations on your 
nomination, and congratulations and thank you to your family as 
well. This is a family commitment and affair, and thank you for 
sharing, and particularly to your sons, thank you for sharing 
your mom with us.
    Ms. Weichert, if you are confirmed as Deputy Director, you 
will be responsible for overseeing program evaluation 
activities. This evaluation of programs net effects, their 
successes and failures, and improvement strategies is 
absolutely critical to ensuring that we are putting Federal 
dollars to their best possible use, on scaling back or 
eliminating ones that do not work. As you said earlier, most of 
your experience has been in the private sector where I am sure 
you evaluated programs and procedure regularly, and you have 
now also spent some time as a senior advisor at OMB.
    Based on your experience in and out of government, how do 
you think we should be evaluating government programs? What 
metrics should we be using, and do our existing evaluation 
tools capture the right information?
    Ms. Weichert. So thank you, Senator. I appreciate the 
question. I think it is a very important question. In my role 
as senior advisor, I have gotten familiarity with some of the 
metrics that are in place and some of the tools that are used 
for oversight and accountability around our programs. There are 
a number of websites that share data with the public. There is 
spending.gov. There is paymentaccuracy.gov.
    And one of my priorities in the second sort of pillar I 
mentioned around data accountability and transparency would 
really be to understand and get a baseline of all of those 
metrics, all of the elements of data that we are sharing, both 
internal to government and externally, and get a taxonomy and a 
framework so that we can efficiently and effectively report 
without creating undue burden on agencies----
    Senator Hassan. Right.
    Ms. Weichert [continuing]. But actually get to actionable 
intelligence. And I think that is maybe the most important 
thing. I see a lot of reporting. I am not yet clear on exactly 
which things are most effective----
    Senator Hassan. Right.
    Ms. Weichert [continuing]. And that would be a priority for 
me.
    Senator Hassan. OK. That makes sense. There have been some 
proposals to devote a portion of every program's funding to 
actually evaluating the program. Do you support that kind of 
proposal?
    Ms. Weichert. I have not seen the specific proposal so I do 
not know in detail. What I can say is it is a leading practice 
to have evaluation and QA capabilities built into programs 
broadly.
    Senator Hassan. Yes.
    Ms. Weichert. But I would want to see what the proposal 
looked like.
    Senator Hassan. Yes. I mean, one of the things that strikes 
me is we really do not necessarily go through an evaluation 
process with so many of our programs in a meaningful way, 
partly because coordination and evaluation takes resources----
    Ms. Weichert. Absolutely.
    Senator Hassan [continuing]. And it takes focus. And so you 
have to figure out a way to devote those kind of resources up 
front, and that what might be one way to do it.
    I wanted to turn now to another priority you talked about 
broadly. We know that we are going through rapid change in this 
economy, and automation poses some challenges for us in the 
Federal Government. As a member of both this Committee and the 
Health, Education, Labor, and Pension (HELP) Committee, I am 
cognizant of the need for both the Federal and private 
workforces to address the challenges that automation may cause 
for workers in the coming decades, from putting formerly paper 
forms online to digitizing parts of the customs process in 
international airports. We can already see the impact of 
automation on many areas of Federal Government.
    Given your background in online transactions, a field that 
has changed dramatically in the past decade due to advanced 
technology, I expect this is something you have given some 
thought to as well. So what do you see as the biggest 
challenges facing the Federal Government when it comes to 
automation?
    Ms. Weichert. So I think this is actually a pivotal piece 
of making progress, because I have heard, anecdotally, as 
senior advisor, many instances where we have actually, in 
government, shied away from the right technology solution or 
efficiency solution or customer experience solution because we 
did not have an easy way to deal with the people who are 
currently performing that function.
    I actually believe that is a linchpin to moving forward on 
both the efficiency and the customer experience agenda. So re-
skilling----
    Senator Hassan. Right.
    Ms. Weichert [continuing]. Is critical----
    Senator Hassan. Yes.
    Ms. Weichert [continuing]. And there are a number of places 
in government, cyber being one of the ones that Senator Peters 
mentioned, customer experience is another one, data science is 
another, where if we have great Federal employees doing a 
function that was really about what was, status quo in the 
1950s----
    Senator Hassan. Yes.
    Ms. Weichert [continuing]. How do we bring those people 
into jobs that are relevant in the 21st Century?
    Senator Hassan. Well, and that is music to my ears, because 
I think there is a win-win here. Often people see this as a 
binary choice. You either automate or you keep your employees. 
And, in fact, we know we need skilled employees in so many 
growing areas, and you kind of brought me to my last area of 
concern, which is cyber security, and following up on what you 
and Senator Peters were talking about.
    It is one thing to understand it as a priority and to 
understand, perhaps, that the separate purchasing activities of 
various agencies means we have decentralized and inconsistent 
levels of cyber security throughout Federal Government. I would 
suggest that that may be true in business and in State 
government as well.
    But how do we not only prioritize cyber security, putting 
in the right platforms to improve it, but how do we go about 
engaging in cyber security, really in the ongoing way that we 
know it has to happen? There are daily attacks on systems 
everywhere. We have ongoing technology that we need to 
understand, to practice the kind of cyber hygiene that is so 
important.
    So how do we change our culture around cyber security and 
then make sure we have the skill sets on board that will really 
allow us to be at the forefront?
    Ms. Weichert. So thank you for that question. Absolutely a 
critical element of the IT modernization strategy that I 
believe we need to pursue, and if confirmed, I would very 
proactively pursue. I think using some of the new authorities 
that Congress has included in the Modernizing Government 
Technology (MGT) bill that hopefully will be signed into law 
soon, as well as the IT Modernization Fund, hopefully will be 
appropriated, will allow us to hopefully shine the light on key 
projects that will help make it easier for agencies to 
prioritize these activities.
    And I think what was in the MGT, allowing working capital 
funds to be used and reinvested in key technology priorities, 
is another area. Obviously, I think it is a large area and it 
is one that deserves deeper, richer study, both leveraging 
learnings from the private sector but also leveraging what have 
been those barriers to that in government. And I would look 
forward to working with this Committee and others in Congress 
to get that fact base so we can really move from kind of 
contemplation into action.
    Senator Hassan. Well thank you very much, and thank you, 
Mr. Chair, for your indulgence. I am a bit over.
    Senator Lankford. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Thank you, Mr. Chairman. To our 
witness, to our nominee, welcome and congratulations. Thank you 
for spending some time with my staff and me in the past week.
    I just want to say to your sons, James and Andrew--what are 
they, 17 and 14?
    Ms. Weichert. 17 and 13, yes.
    Senator Carper. 17 and 13. And they go to school where, in 
Georgia?
    Ms. Weichert. No. They go to school in Falls Church.
    Senator Carper. Oh, OK. Good. I just want to thank you for 
your willingness to miss school today.
    Ms. Weichert. [Laughs.]
    Senator Carper. Being here with your mom, to have her back. 
That is good. And to be with your grandmother on her birthday. 
I always called my mom on her birthday, for years and years. 
And she passed away about a decade ago at the tender age of 83. 
And I would also call her every year on my birthday, to thank 
her for bringing me into the world. Those were very special 
conversations. So I know you are especially proud of your 
daughter, Ms. Morgan, and Mr. Morgan.
    When we talked the other day, I think I mentioned I once 
had the pleasure of being Governor of Delaware for about 8 
years and was very active in the National Governors Association 
(NGA). One of the things we did at the National Governors 
Association, every 2 years, right after the election, within 2 
weeks after the election, the current Governors and spouses 
would host the new Governors, the Governors-elect, and their 
spouses, at new Governor school, at some place around the 
country. And it was just three full days of the old guys and 
gals sort of bearing their souls and explaining to the new 
folks all the mistakes we had made, and what we had learned 
from those mistakes, in hope that the new folks would not make 
the same mistakes.
    You have the opportunity--we do not have a new OMB Deputy 
Director of Management school for newbies, but you do have a 
good bench to draw from, and Beth Cobert is one of the names I 
have mentioned to you. I think you may have spoken with her. 
Another fellow, Brian Deese. They are both back in the private 
sector. Beth used to run McKinsey & Company's operations out on 
the West Coast and she is back in the private sector now. She 
is just brilliant. And Brian Deese is as well.
    Another source--and I think I have mentioned this to you, 
and I think you have already reached out to the Government 
Accountability Office (GAO)--you will not find a better public 
servant than Gene Dodaro, and the leadership that he provides 
there is, I think, incredible.
    One of the things that a fellow named Coburn, we used to 
have a Republican on this Committee. His name was Tom Coburn 
from Oklahoma. And he was always interested in doing the right 
thing. He did not like to waste money, and I think certainly 
the three of us sitting here feel the same way.
    And one of the things that Tom and I would do, along with 
our colleagues, is we realized that we are just one oversight 
committee, but to the extent that we could partner with GAO, to 
the extent that we could partner with OMB, to the extent we 
could partner with inspectors general (IGs) around the Federal 
Government, we could get a lot more done.
    And you mentioned that you have a passion. What would you 
bring to this job? A spirit of innovation and passion for doing 
the right thing. We need to do the right thing. We need to find 
fiscally responsible ways to do the right thing. And in meeting 
with you, my sense is that is what you would like to do, and we 
want to be helpful and supportive of that.
    You have a position, a CIO position, is that right, that it 
has not been filled, or you will?
    Ms. Weichert. Right.
    Senator Carper. Yes. And there is a woman named Phyllis 
Schneck that my colleagues may or may not remember. She came 
out of the private sector. She worked in cyber for Homeland 
Security. I will meet actually meet with her, talk with her 
later today. And she is back in the private sector. She is 
brilliant, and I think somebody who would contribute a huge 
amount, in the short time she was with the Federal Government, 
and I think could do more so. Those are a couple of names that 
I would just bring to your attention.
    One of the things that we have worked on in this committee 
forever is improper payments. We focus a lot on the high-risk 
list. And Tom Coburn and I used to take the high-risk list as 
our to-do list. One of the things on the high-risk list forever 
has been property, real property management, and that is an 
area where we have made pretty good progress. Rob Portman and 
others on this Committee, along with me, have focused a whole 
lot on property management and making sure that we are doing a 
better job.
    You will inherit, I think, a better plan in place, a better 
system in place to deal with the property management, and I 
would just ask you to take it to the next level. And I think it 
is sort of teed up for you to do that.
    I do not know if we mentioned when we met, we have 
jurisdiction, this Committee, on Homeland Security Department. 
The Department of Homeland Security (DHS), I will just say to 
James and Andrew, it was created right after September 11, 
2001. It has about 240,000 people who are part of the 
Department of Homeland Security, but they are spread all over 
the world. They are also spread all over the greater 
metropolitan Washington area. It is a terribly inefficient way, 
a very hard way--John Kelly would tell you, as the former 
Secretary. Jeh Johnson would tell you, as the former Secretary. 
Tom Ridge would tell you. Janet Napolitano would tell you. It 
is an impossible management situation, to manage that many 
people, just spread all over hell's half acre.
    And there is a property called St. Elizabeths which is here 
and actually in Washington, D.C. Old property. And the last 
administration, actually, suggested that it would be a good 
place to create a headquarters for Department of Homeland 
Security. I first heard about it--I saw this as a crazy idea. 
As it turns out it is not. The General Services Administration 
(GSA) figured out a way to save a lot of money, putting a lot 
of people in that large space, that large campus. And we have 
invested a couple billion dollars, and we basically--it is now 
like dead in the water, almost dead in the water, which is, I 
think, just a shame.
    And you are going to hear a little bit more a little later 
on about St. Elizabeths, and DHS, they need a home. They need a 
way. Whoever was the Secretary there, Kirstjen is just 
confirmed, they are going to need some attention to this. So I 
just bring it to your attention.
    Talk to us about improper payments, just a little bit if 
you would. Every year, for every 2 years, for years, we have 
heard about improper payments. We have done a lot to deal with 
improper payments. Any thoughts that you would share with us on 
how to approach that?
    Ms. Weichert. Sure. Thank you, Senator. I appreciate your 
thoughts and your thoughtfulness.
    Senator Carper. Sorry to ramble so much.
    Ms. Weichert. No. I appreciated the thought.
    As it happens, payments is something I care a lot about. My 
observations about what are termed ``improper payments'' here 
in government really constitutes three major categories. One is 
the actual fraud and abuse, the second are errors, so payments 
that are in the wrong amount or to the wrong address, things of 
that nature, and then the third are payments that do not have 
sufficient documentation. And I think the solutions to those 
three distinct categories are somewhat different.
    The Do Not Pay database, I think, has been a really useful 
tool, from my observation, and I think extending that more 
broadly in government and also to State and local governments, 
and that is in the works, that seems like a really great idea 
to address specific issues around the fraud and abuse piece.
    I think the two other pieces have a lot to do with process 
improvement activities, and, frankly, I have not seen a lot of 
the root cause issues, and they seem to vary a lot agency to 
agency. So, if confirmed, I would welcome the opportunity to 
dig deeper and look for solutions in those areas.
    Senator Carper. All right. Thank you. If I could have maybe 
30 more seconds, Mr. Chairman, could I?
    Senator Lankford. I will have to bring that up with Senator 
Heitkamp. We will have to decide together.
    Senator Heitkamp. Go for it.
    Senator Carper. We just learned this past week the 
Department of Defense (DOD), after years of being badgered by 
us, this Committee, is going to try to achieve a full audit. 
They have not done that ever, since 1947. And you may want to 
keep an eye on them, make sure they are doing what they are 
supposed to be doing.
    The other thing is we are looking at a request for defense 
spending increase over the next 10 years of, I do not know, 
$600 billion or more, and we spend more than the next 10 
nations combined on defense. Is not that amazing? The United 
States spends more on defense than the next 10 nations 
combined, and we have a request for another $600-plus billion. 
DOD has never achieved an audit, an unqualified audit, and they 
have huge cost overruns for major weapons systems, spare parts, 
all kinds of problems. I would just ask you to keep an eye on 
them. I am a retired Navy captain, love the Navy, love the 
military, but in a day and age when we are trying to do things 
more efficiently, DOD has to be a big part of that as well.
    Thank you. Good luck. We look forward to working with you. 
And again to your family, a special thanks for being with us 
today, and having her back, raising her the way that you have 
done that, and for her kids, continuing to raise you. All 
right. Thank you.
    Senator Lankford. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you 
for coming and thanks to your family for providing you with the 
support.
    I am always amazed that one of the biggest challenges we 
have in the Federal Government is improving efficiency, 
convincing the taxpayers that we are, in fact, serious about 
making sure that every dime that is spent is spent in the right 
direction, and that we do have their best fiscal interest at 
heart. But yet, these sometimes are lonely meetings for me and 
the Chairman, as we work through a lot of these issues. And so 
we care deeply, especially on our subcommittee, about the role 
you will play in improving efficiency, responding to GAO, 
responding to IGs, really pushing, as the former Ranking Member 
Carper said, really pushing to make sure that the to-do list 
actually gets accomplished.
    I have a concern. Ever since OMB has announced that they 
are, in fact, looking at reorganization, and every Cabinet 
position is doing this--we have been doing oversight but yet we 
have not been able to get anyone from OMB to give us a status 
report. And, they are the people who are on point on this, and 
I think if we are going to be successful doing our oversight, 
we definitely need cooperation from OMB. And I am little 
concerned that we are not getting it right now.
    So, I am going to ask you a series of questions, and just 
yes or no. You do not have to expound on them, but I think they 
would be pretty easy.
    Do you believe it is important for the talent, mission, and 
morale of our Federal workforce to accomplish the goals of the 
Federal Government, to have high morale?
    Ms. Weichert. Yes.
    Senator Heitkamp. Do you believe it is OK to sacrifice 
talent, mission, and morale for the sake of reducing workforce 
through attrition?
    Ms. Weichert. I am sorry. Could you restate the question?
    Senator Heitkamp. Attrition is typically, we are not going 
to hire anyone. A lot of times what you see in attrition is 
that the most valuable employee is the one who walks out the 
door, and that is a role we desperately need to fill. So if we 
are going to reduce workforce it should be more strategic. 
Would you agree with that----
    Ms. Weichert. I agree. Absolutely.
    Senator Heitkamp [continuing]. That attrition is not 
necessarily the way to reduce Federal workforce?
    Ms. Weichert. If you lose your best talent, absolutely not.
    Senator Heitkamp. Will the reorganization process be 
stronger if OMB gives Federal employees and stakeholders a 
voice in the process and ensures that they understand the goals 
of the effort, as well as how it will be executed?
    Ms. Weichert. So as senior advisor, I have not been 
involved directly in the reorganization process, so I am not 
super informed on the specifics of who is involved.
    Senator Heitkamp. Yes. I will tell you this. I have gone 
through, in my role in State government I managed several 
agencies. I was never successful without involving the people 
who actually do the work. And there is a concern that this is 
going to be top-down without actually getting folks who do the 
work day to day involved. And so I would strongly recommend 
that it is important that you do things with employees and not 
to them. And so just a little bit of advice there.
    Will the reorganization process be stronger if OMB works to 
make sure Congress understands its goals?
    Ms. Weichert. Yes.
    Senator Heitkamp. Yes. So I think when we go through kind 
of these lists of questions, it is important that you 
understand, from my perspective, why I am concerned about this 
reorganization and why I need to have more information. So, if 
confirmed, will you commit to getting up to speed on the 
reorganization and to providing testimony or input back to this 
Committee or the Subcommittee?
    Ms. Weichert. So if confirmed I expect I would be getting 
more involved and getting up to speed to it, and I would look 
to work collaboratively with this Committee and relevant other 
committees on an open exchange.
    Senator Heitkamp. I hope we can expedite your confirmation. 
I find you perfectly well qualified. There is a larger role of 
oversight that OMB plays with this Committee and when we do not 
get the information back from OMB I do not think we can perform 
the responsibility that we have on the other half of the 
Committee's name, which is government affairs.
    So another issue that I have worked on has been the Program 
Management Improvement and Accountability Act, which is 
something I penned and co-authored with my colleague, Senator 
Ernst. It was signed into law. We are now in that process of 
seeing implementation, and definitely believe that this was an 
important piece of legislation, needs to be implemented 
correctly.
    And so I just want to ask you a series of questions. The 
law had many one year deadlines, and some of those have slipped 
and we have not seen the level of attention. So, if confirmed, 
how will you take leadership on and execute your 
responsibilities under the Program Management Improvement and 
Accountability Act?
    Ms. Weichert. So thank you, Senator. As senior advisor, I 
have not been involved in any of the issues around that 
particular legislation. If confirmed, I would seek to get a 
baseline on where we are and what, if any, roadblocks there are 
to effectively complying with the law and also really ensuring 
that the spirit of what was intended is being achieved.
    Senator Heitkamp. I think the Chairman has talked about his 
visits to Federal agencies and his oversight that he does day 
to day, and, we cannot underestimate what a bad manager does to 
efficiency, what a bad manager does to morale, and that this is 
intended not to be a blunt instrument but intended to be very 
strategic. And if we do not have buy-in and enforcement and a 
commitment at OMB, we will not realize the benefit of this kind 
of focus.
    And so I really would appreciate this becoming a higher 
priority over at OMB once you get over there, or once you are 
confirmed into this position.
    Ms. Weichert. Yes. I look forward to working with you on 
this, if confirmed.
    Senator Heitkamp. OK. Thank you, Mr. Chairman.
    Senator Lankford. Thank you, Senator Heitkamp.
    Ms. Weichert, as I have mentioned before, this should be a 
familiar spot for you in conversation with Senator Heitkamp and 
I, because we have a long stack of questions. And as I visited 
with Mick Mulvaney in the days before, and have said how can we 
learn more about the restructuring process--we have already 
done two hearings on it. And, by the way, in both hearings we 
had very good input from the agencies saying that it seems OMB 
is listening, they are getting feedback from the individuals 
that work in the agency. I think that is exceptionally 
important. I learn more about an agency walking around through 
the cubicle farm, visiting with everyone there, than I learn by 
talking to the managers, most of the time. So getting that 
input is exceptionally important to be able to make sure any 
structural changes are made with wisdom in it.
    But as I have asked Mick Mulvaney, point blank, and said, 
``Who will be the point person to help us walk through that?'' 
he has said to me, ``The person that still needs to be 
confirmed. Ms. Weichert is going to be the one that will be the 
point person for this in the days ahead.''
    So I know you have been separated out from that, but we are 
looking forward to you getting up to speed on it and so we can 
find ways to be able to help in this. Any lasting positive 
change does not happen with just administrative actions. It 
happens when it functions through Congress.
    So we look forward to not only seeing the reports, your 
counsel on it, your advice once you see it, but then actually 
bringing it here and so we can have the opportunity to be able 
to have input and to start trying to be able to implement this 
from a congressional level.
    Stability in government is both a friend and an enemy. It 
is an enemy in times when we are stuck. It is a friend in the 
times that there is predictability for the employees to be able 
to know their job and what to be able to do. So we want to help 
in that. That is not necessarily a question, but is certainly a 
sense that we are looking forward to ongoing conversation on 
this in the days ahead, as you work through this.
    Let me talk a little bit about cooperation across agencies. 
OMB has a unique responsibility that each agency head takes 
care of all the leadership there, but OMB has the 
responsibility of looking at all agencies and saying we have 
five of basically the same things happening in five different 
agencies, with slightly different titles. We have to figure out 
how to do greater efficiency here, or how to figure out how to 
get two entities that could help each other actually helping 
each other.
    You brought up one of those already, the Do Not Pay list. 
We have pounded for years on the wonderfully named Death Master 
File (DMF) that is out there. That was sequestered away in one 
entity and not shared with others, and so we have people 
sending checks out to people that another agency knows have 
been long since dead for 10 years, but no one else has shared 
the information.
    Here is my question. How can you help us break down some of 
those silos, getting agencies actually talking to each other, 
and having enough authority in your role leading management to 
be able to say, ``You and you are going to play well together 
and you have to share information''? How does that happen?
    Ms. Weichert. So thank you for the question and the 
comments, Senator. This is actually not a unique challenge to 
government, and, in fact, the Death Master File issue is an 
issue for banks, for different reasons. But if someone calls 
into a bank, like Bank of America, and tells them that someone 
is deceased, they do not want to be getting bills from another 
part of that same organization.
    So what I have done in the private sector, and I think 
works well, is rather than leading with a mandate from the top 
is using facts to help create stories about how the various 
components will win by pulling together, and also getting facts 
about what are the structural impediments. I know there are 
privacy considerations and other previous statutes put in 
place, for good reasons, to prevent untoward use of data. But 
to really understand, OK, what is the spirit of that original 
intent, and then what does it prevent that we might like to do 
today, and that is, I think, an area where proactively I would 
see, if confirmed, leading the analysis to get identification 
of those ideas, and then working with Congress to say what is 
the right way to punch through some of those ideas so we can 
make real progress.
    Senator Lankford. Yes. We have to make real progress on 
this and it has been a great frustration. For years, I have 
asked the Census Bureau why they cannot cooperate with the 
Internal Revenue Service (IRS). The IRS gathers information 
from just about every American every April. The Census does it 
once every 10 years. And for some reason the two of them cannot 
seem to talk to each other, so that every 10 years when we do 
our taxes, we are also completing our census at the same time. 
Now that does not seem like a radical concept to me, but for 
years I have worked with Census, and for years they have said 
they are studying it.
    If there is some legislative barrier there that does not 
allow the two of them to cooperate, we just need to know so we 
can get it fixed. But that is billions of dollars in the Census 
creating a structure that the IRS already has in place, and 
while we will not capture every single person, I bet we capture 
more than the original mail-in does from Census. That is one 
example of a lot of them. We just need someone looking at the 
whole structure and saying how can we work better together on 
this.
    You and I have spoken, as well, about the hiring 
authorities. There are 120 different hiring authorities in the 
Federal Government. I do not think we need 120 different hiring 
authorities, but we need great employees here. And a lot of 
those great employees are retiring in the days ahead. Every 
agency says, ``I have 120 hiring authorities but what I really 
want is direct hiring authority and I do not have that.''
    Can you help us be able to work through this maze, so we 
can try to fix some of the hiring authority issues? As I have 
mentioned to you before, it is fine for the President to say we 
need to have more people on the border with Customs and Border 
Patrol (CBP), both Southern and Northern Border. That is fine 
to say that, except it takes 450 days to hire one agent. That 
cannot be. So we have to be able to figure out how to be able 
to process that.
    Is that something that you are already working on and are 
you thinking on?
    Ms. Weichert. So thank you. Absolutely, I think that is 
critical, and the third pillar around the workforce for the 
21st Century really speaks to what are all the elements that we 
need to get in place so that we can do all of the parts of 
people management from vetting, hiring, deploying, 
adjudicating, and getting to be efficient, up to the 21st 
Century standards.
    Many of the policies that create these slow timelines today 
were established in the post-World War II era, again, for very 
good reasons, but they are not necessarily relevant in a 
digital world that is expecting you could go to Monster.com and 
hire someone in 2 days if you wanted to, and I could hire a 
nanny and get her background check online today if I wanted to.
    Senator Lankford. Or you can go to the Federal Government 
and get it in 6 months.
    Ms. Weichert. Exactly. So that is, again, I think, a 
linchpin of making progress on the broader management agenda.
    Senator Lankford. OK. There are a couple of bills that are 
in the process of moving through right now. The Federal Agency 
Customer Experience (FACE) Act that Senator McCaskill and I 
have worked on has passed through the Senate already. We sent 
it over to the House. That deals with just basically getting 
customer feedback, allowing agencies to do what basically every 
rental car company and hotel already does. If you stay at a 
hotel, they send you an email afterwards saying, ``How did we 
do?'' The Federal agencies do not typically do that, getting 
customer service feedback, because of a whole host of 
complexities, just getting customer service feedback.
    We would like to help with that, and, quite frankly, I 
think that is a good tool for you to be able to have in working 
with agencies, that they are getting customer feedback and 
getting some continuous improvement.
    The second thing is a bill called the Taxpayers Right-To-
Know. It is creating a list that currently does not list, that 
is, every agency just saying what they do. I would expect one 
of your first questions, when you walk into this role, is to be 
able to contact agency heads and say, ``Tell me what you do in 
every program.'' Most of those agencies are going to say, ``We 
do not know.''
    Ms. Weichert. Yes.
    Senator Lankford. I think that is a problem, that we cannot 
supervise what we cannot see, and they cannot lead what they 
cannot see. So just forming a basic list of every program, how 
it is evaluated, if it is evaluated, how much money they put 
toward that program, how many full-time employees they have for 
that, and how many people they serve. It is a pretty basic 
metric that everyone in the private sector has already, for all 
of their entities, on what they commit to it.
    It is one of the things that we are trying to be able to 
work through the process. Senator McCaskill and I, again, are 
working on that particular piece. We hope to be able to get 
that done quickly, as a resource tool for you and for every 
future person at OMB, especially on the management side of it, 
to be able to help them with that management.
    So we just look forward to that cooperation together in the 
days ahead. Again, that is not designed to be a tool that is a 
punitive tool by any means. It is designed to just be a 
resource for everyone to be able to see what is actually 
happening.
    Ms. Weichert. Thank you for that input.
    Senator Lankford. Yes. No big question on that one.
    Senator Heitkamp, any other questions?
    Senator Heitkamp. I just want to add something to all of 
that. I would assume that in these reorganization documents 
that you will be reviewing a lot of the information that the 
Chairman has just outlined, is information you should already 
have. I mean, it is unbelievable to any of us that there is not 
a master list somewhere, especially within each agency, of what 
these programs are, how many people are dedicated to these 
programs, and what is the expenditure kind of looking at a cost 
benefit.
    And the other piece of this, because I come out of State 
government, how does this activity potentially duplicate what 
States and local entities are doing, and how do we streamline 
that multiple jurisdictional problem that we consistently have?
    And so this is a very, very high priority, and it is 
absolutely essential information for oversight. And that is why 
I want to hear more about what is happening in reorganization. 
If you are not getting that information in reorganization, my 
question would be why not. I mean, why is that not part of the 
reorganization documents?
    This is not, unfortunately, the sexiest issue in Congress. 
It never rises to a level of urgency. We feel a great deal of 
urgency on these issues, because we have limited resources. We 
cannot afford to waste any of those resources, moving forward. 
There is important strategic work that needs to be done by 
every agency of government, but there are also, I would 
imagine, a lot of things that are getting done that are tired 
and old and need to be relooked. And this is a real 
opportunity, I think, for you, for someone with your skill set 
coming in.
    And I just want to make this promise to you. You will find 
a very open committee, a very interested committee, a very 
committed committee, especially our Subcommittee on these 
issues that you are going to look at. And it is very bipartisan 
and very much set with the same goal of efficiency in 
government and appropriate levels of government. And so use us. 
Talk to us if you run into problems with other agencies, 
because you are going to be the bad cop.
    Ms. Weichert. Right.
    Senator Heitkamp. I can tell you, having gone through a 
period where we consolidated offices and attorneys into the 
attorneys general (AGs) office, how difficult that was to set 
one standard for all the attorneys of State government. I mean, 
everybody was used to having their own attorneys doing their 
own thing. And we ignore efficiencies when we allow turf to be 
the issue and not efficiency.
    So you are going to have to be a bad cop, but you may 
occasionally need some backup. And I think what we are telling 
you is we are here, and we are here to listen, and when you run 
into problems it is important to bring it back to our Committee 
and let our staffs know, especially.
    Ms. Weichert. I really appreciate that.
    Senator Heitkamp. Good luck, Margaret, and we look forward 
to working with you into the future, and hope for your speedy 
confirmation because your role, albeit, not a roomful of 
interested lookers-on, but we are interested. And so, that is 2 
out of 100 who really care about what you do, and that is 
pretty good.
    Ms. Weichert. My kind of people.
    Senator Lankford. Yes, that is good. So what Senator 
Heitkamp is saying is when you get stuck in some process, 
release the redheads on them, and we will go see if we cannot 
help shake the trees.
    Ms. Weichert. My grandmother was a redhead.
    Senator Heitkamp. We live up to our reputation, you know.
    Senator Lankford. So we will be glad to be able to help 
with that.
    Senator Heitkamp. Slow to get there, but once we do, it can 
be serious.
    Ms. Weichert. Thank you both. I appreciate it.
    Senator Lankford. Ms. Weichert, I really appreciate you 
being here, for taking this task on. It is a long process to go 
through a nomination. I have yet to talk to a single person in 
the nomination process, for any task, that says, ``This is such 
a pleasant process.'' It is miserable as you go through, as you 
have total strangers going through every aspect of your life, 
sitting at a long table all alone, and answering questions, 
then waiting on the mercy of the Senate process to be able to 
go through the nomination, to actually do the work that you 
want to do.
    So let me just say thank you for going through the process. 
Let me also remind you that through your vast experience, you 
were in many different places, making quite an impact for a 
short period of time. I am sure you have looked back at some of 
these places and said, ``I wish while I was there I would have 
done this, because I had been there a shorter time than I 
thought.''
    Whatever the window is that you are going to be here, 
whether it is 3 years or 7 years, it is going to be a window. 
And so I would only encourage you, make the most of the time 
that you have, because our Nation desperately needs someone 
handling management of the Management and Budget, and it is one 
of the most important entities that no one has ever heard of, 
but it makes a significant difference to us. So please lead in 
the management area. We will need that good leadership in the 
days ahead.
    And for Andrew and James--do not mind, Andrew, if I am 
little more biased to the James than the Andrew here, because 
my first name is James as well--but for both of you, thank you 
for being here, and I hope this is a good civics lesson for you 
as well. And happy birthday. Glad that you are here, for both 
of you to be able to be here to be a part of it, and I hope it 
is not too painful. I can only imagine watching my child 
sitting on the stand and going through all the fun of it. That 
would not be as much fun as you would think it would be. So 
thank you for being here and being a part of it.
    Let me just make a quick closing statement as well. The 
nominee has made financial disclosures, provided responses to 
biographical and pre-hearing questions submitted by the 
Committee. Without objection, this information will be made a 
part of the hearing record,\1\ with the exception of the 
financial data, which is on file and available for public 
inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The information of Ms. Weichert appears in the Appendix on page 
29.
---------------------------------------------------------------------------
    The hearing record will remain open until 12 p.m. tomorrow, 
December 15, 2017, for the submission of statements and 
questions for the record.
    Thank you again for being here and being a part of this 
process. With that, this hearing is adjourned.
    [Whereupon, at 10:59 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
